<html>
<title> - GEORGIA'S PARLIAMENTARY ELECTION: HOW FREE AND FAIR HAS THE CAMPAIGN BEEN, AND HOW SHOULD THE U.S. GOVERNMENT RESPOND?</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 GEORGIA'S PARLIAMENTARY ELECTION: HOW
                FREE AND FAIR HAS THE CAMPAIGN BEEN, AND
                HOW SHOULD THE U.S. GOVERNMENT RESPOND?

=======================================================================

                                HEARING

                              BEFORE THE

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2012

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                            [CSCE 112-2-10]
                            
                            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            
                            
                            
   

                   Available via http://www.csce.gov
                   
                   
                                _____________
                                
                            
                        U.S. GOVERNMENT PUBLISHING OFFICE
94-192 PDF                   WASHINGTON : 2015                        


_______________________________________________________________________________________          
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3354435c73504640475b565f431d505c5e1d">[email&#160;protected]</a>  
         
           
           
           
           
           
           
           
           
           
           
           
           
           
           
           COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey, 
Chairman
JOSEPH R. PITTS, Pennsylvania
ROBERT B. ADERHOLT, Alabama
PHIL GINGREY, Georgia
MICHAEL C. BURGESS, Texas
ALCEE L. HASTINGS, Florida
LOUISE McINTOSH SLAUGHTER, 
New York
MIKE McINTYRE, North Carolina
STEVE COHEN, Tennessee

                                     BENJAMIN L. CARDIN, Maryland, 
                                     Co-Chairman
                                     SHELDON WHITEHOUSE, Rhode Island
                                     TOM UDALL, New Mexico
                                     JEANNE SHAHEEN, New Hampshire
                                     RICHARD BLUMENTHAL, Connecticut
                                     ROGER F. WICKER, Mississippi
                                     SAXBY CHAMBLISS, Georgia
                                     MARCO RUBIO, Florida
                                     KELLY AYOTTE, New Hampshire

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
              MICHAEL C. CAMUNNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  [ii]


                   GEORGIA'S PARLIAMENTARY ELECTION:

                       HOW FREE AND FAIR HAS THE

                     CAMPAIGN BEEN, AND HOW SHOULD

                      THE U.S. GOVERNMENT RESPOND?

                              ----------                              

                           September 20, 2012
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3

                               WITNESSES

Sec. Thomas Melia, Deputy Assistant Secretary of State, Bureau of 
  Democracy, Human Rights and Labor, U.S. Department of State....     4
Dr. Ariel Cohen, Senior Research Fellow for Russian and Eurasian 
  Studies and International Energy Policy, Heritage Foundation...    16
Dr. Mamuka Tsereteli, Director, Center for Black Sea-Caspian 
  Studies, School of International Service, American University..    18
Dr. Archil Gegeshidze, Senior Fellow, Georgian Foundation for 
  Strategic and International Studies............................    21

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    30
Prepared statement of Sec. Thomas Melia..........................    32
Prepared statement of Dr. Ariel Cohen............................    34
Prepared statement of Dr. Mamuka Tsereteli.......................    38

                                 [iii]

                   GEORGIA'S PARLIAMENTARY ELECTION:
                       HOW FREE AND FAIR HAS THE
                     CAMPAIGN BEEN, AND HOW SHOULD
                      THE U.S. GOVERNMENT RESPOND?

                              ----------                              


                           September 20, 2012

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 12:30 p.m. in room 2255, Rayburn 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Steve Cohen, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Sec. Thomas Melia, Deputy Assistant 
Secretary of State, Bureau of Democracy, Human Rights and 
Labor, U.S. Department of State; Dr. Ariel Cohen, Senior 
Research Fellow for Russian and Eurasian Studies and 
International Energy Policy, Heritage Foundation; Dr. Mamuka 
Tsereteli, Director, Center for Black Sea-Caspian Studies, 
School of International Service, American University; and Dr. 
Archil Gegeshidze, Senior Fellow, Georgian Foundation for 
Strategic and International Studies.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    The Commission will come to order.
    And good afternoon to everyone. Thank you for being here.
    I want to welcome all of you to our hearing on Georgia's 
parliamentary elections, which is now only 11 days away. The 
campaign has brought Georgia to a crossroads. It is the most 
crucial event in Georgian democracy since the Rose Revolution 
of 2003.
    At that time, everyone will recall Georgians responded to a 
rigged election with a peaceful protest. It was a great moment 
in Georgian history, the first of the color revolutions. The 
Rose Revolution brought Mikhail Saakashvili--I've said it a 
million times--and his team of Western-oriented, modernizers 
into office. Hopes were high in Georgia that Saakashvili 
strengthened the state and launched many reforms.
    Russia's 2008 invasion and occupation of the Georgian 
regions of Abkhazia and South Ossetia failed to topple the 
president, and our country has strongly supported Georgian 
sovereignty. Vladimir Putin's invasion was yet another 
revelation of his cynical brutality.
    As an aside, I would note that I was in Georgia in the days 
following that invasion working to affect the return of two 
girls--daughters of one of my constituents--and, as it turned 
out, several other young people who were caught behind Russian 
lines. And I was deeply impressed by the courage and the 
determination that I encountered in every Georgian that I met.
    That brings us to the present moment. Only a year ago, 
President Saakashvili's ruling National Movement seemed poised 
to easily win the October 2012 parliamentary election over a 
fragmented opposition. But in October of 2011, a man by the 
name of Ivanishvili began to unite elements of the opposition 
into a new coalition that posed a serious challenge.
    Mr. Ivanishvili is a multibillionaire and thought to be a 
newcomer to politics--and though he was such a newcomer, he had 
vast resources. The government quickly stripped him of his 
citizenship, and the parliament passed campaign finance laws 
that limited the use of his assets.
    At the same time, the instruments of the state, budget, 
police and security services began to be deployed against the 
party and its supporters, though to what extent is a matter of 
dispute. Consequently, the election campaign has raised very 
serious questions about Mikheil Saakashvili's reputation as a 
reformer.
    I'm sure we'll hear from our witnesses to what degree his 
government has institutionalized genuine democratic governance 
as opposed to the appearance of it. I don't mean to prejudge 
this question. It is a difficult one that our witnesses are 
outstandingly qualified to grapple with.
    But the main questions we'd like to hear our witnesses 
answer touch on the conduct of the campaign, specifically the 
opposition's charges that the Georgian state has targeted 
Ivanishvili and his supporters through harassment, 
intimidation, beatings, selective enforcement of the law and 
violations of freedom of assembly and expression.
    If substantially true, that would be terribly sad. It would 
indicate that the Rose Revolution had gone bad. At the same 
time, Ivanishvili and his coalition have been targeted as 
working on behalf of Russia. The Georgian government sometimes 
seems to paint the conflict not as one between two political 
parties but between the Georgian state and its foreign enemies 
trying to subvert it. We certainly need to hear your thoughts 
on that as well.
    I do believe that members of this Commission will have open 
minds on all of these questions and that each of your 
testimonies will be an important aspect in informing Congress 
and our own government on the conduct of the Georgian election 
campaign, now in its last days.
    We are fortunate to have some outstanding witnesses who 
will speak to this, but before doing so, I'd like to now yield 
to my friend and colleague, Mr. Cohen, ranking member, for 
comments he might have.

 HON. STEPHEN COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Thank you, Mr. Chairman, and to our panel and interested 
parties.
    I look forward to the testimony and the edification, for I 
will be traveling to Georgia with, I believe, Congressperson 
Kay Granger and Dreier to monitor the elections. I am certainly 
concerned about elections all over the world--including in my 
home city of Memphis, where they're probably worse conducted 
than maybe they are in Georgia and other places. And maybe 
Georgia is going to be a great experience, and I'll learn 
something to improve Memphis. But I look forward to observing 
and participating, and hope that the people of Georgia will 
have a free and fair election and elect the person who is, 
indeed, the winner of the contest.
    And with that, I yield back the remainder and just look 
forward to your testimony.
    Mr. Smith. Thank you, Mr. Cohen.
    Before going to our first panelist, I'd like to point out, 
and would not want to fail to mention, the terrible scandal 
that broke yesterday in Georgia concerning gross abuses in 
prison. Videos have emerged that reveal the most horrifying of 
tortures, including the sadistic rape of men by prison 
officials. The Georgian minister of corrections has resigned. 
Individuals have been arrested, and the government has pledged 
to punish all those responsible and to uproot this problem.
    I welcome those actions and promises, but I also would note 
the statement made by the national security adviser who said, 
quote, ``We as a government made a grave mistake when we did 
not properly evaluate the signals coming from the ombudsman and 
other civil society groups about the systemic problem in the 
penitentiary system.'' That is a telling admission. It's 
precisely the systemic nature of this abuse that evokes the 
greatest concern because it raises questions about the nature 
of Georgia's state's relationship with its citizens.
    I'd like to now introduce our very distinguished first 
witness, Thomas Melia, who is the deputy assistant secretary of 
state, Bureau of Democracy, Human Rights and Labor. He is 
responsible for DRL's work in Europe, including Russia and 
Central and South Asia, as well as worker rights issues 
worldwide. In addition to heading the head of U.S. delegation 
to several OSCE meetings, he is the U.S. co-chair of the Civil 
Society Working Group in the U.S.-Russia Bilateral Presidential 
Commission.
    Mr. Melia came to DRL in 2010 from Freedom House, where he 
was deputy executive director for five years. He had previously 
held posts at the National Democratic Institute and the Free 
Trade Union Institute at the AFL-CIO. He also has a Capitol 
Hill experience having served as senior elective assistant for 
foreign affairs policy for Senator Daniel Patrick Moynihan. 
Secretary Melia has just recently returned from a visit to 
Georgia, so will provide, I think, some very fresh impressions 
as to what is going on there. Secretary, the floor is yours.

SEC. THOMAS MELIA, DEPUTY ASSISTANT SECRETARY OF STATE, BUREAU 
 OF DEMOCRACY, HUMAN RIGHTS AND LABOR, U.S. DEPARTMENT OF STATE

    Thank you, Mr. Chairman and Mr. Cohen, for being here today 
and for this invitation.
    Before I get into the Georgia discussion, I just want to 
say how pleased we are to work on a daily basis with the 
Commission and the staff in advancing a shared agenda and 
promoting human rights and democratic values across the OSCE 
region. I will be going to Warsaw next week for the human 
dimension meeting and look forward to working with your staff 
and others there in this regard, as we have so often in the 
past.
    In this context of a shared, continued objective of 
strengthening democracy in the OSCE region and in advance of 
Georgia's October first parliamentary elections, President 
Obama, Secretary Clinton and other senior U.S. officials have 
highlighted the importance of such a truly democratic electoral 
process for Georgia in our regular dialogues with the 
government--in our strategic dialogue, which means high-level 
meetings here and in Georgia; most recently at the highest 
level, when Secretary Clinton visited Georgia in June.
    Last week, President Obama and Secretary Clinton sent to 
Georgia an unusual interagency delegation that I was privileged 
to lead that included senior officials from the State 
Department, U.S. Agency for International Development, the 
Department of Justice and the Department of Defense to 
demonstrate that there's a broad interest in these elections in 
Georgia, just as there is a very broad and deep relationship 
being built out between the United States and Georgia.
    Our delegation went to Georgia to highlight the importance 
of a democratic process that produces a parliament that 
reflects the will of the Georgian people. I was delighted that 
our newly arrived ambassador, Richard Norland, had just been 
confirmed and arrived, joined most of our meetings in his very 
first week in country.
    We met with a range of senior government officials, the 
prime minister and other ministers, election commission 
chairmen, the head of the special audit office as well as with 
political opposition, NGO election observers, journalists and 
others.
    The message that we conveyed privately in each of our 
meetings was identical, and also identical to what we've said 
in public: The United States supports the Georgian people's 
aspirations for a free and democratic process. We do not favor 
any particular party or candidates, and the United States looks 
forward to close cooperation with whichever leaders the 
Georgian people choose. Conducting these imminent elections 
with integrity will be critical to helping Georgia advance its 
Euro-Atlantic aspirations. They will also be essential to a 
democratic transfer of power next year as the parliament 
elected in October will, at the start of the next presidential 
term, will select a new prime minister who will have enhanced 
powers under the constitutional revisions that will take place 
at the end of this president's term, when President 
Saakashvili's successor takes office.
    Domestic and international perceptions of fairness of the 
campaign environment, including adherence to the rule of law, 
media access and transparency and the impartial adjudication of 
election-related disputes will be important indicators of 
Georgia's democratic development.
    I would like to highlight today, as I did in Tbilisi last 
week, the importance of several fundamental principles that 
featured in all of our conversations in Georgia and all of 
which are essential for a meaningful electoral process. First 
and foremost is the importance of a level playing field. It is 
essential that the political environment is conducive to 
serious participation in the campaign by all the major parties 
on equal terms. We welcome some steps by the government--
through the Interagency Task Force on Elections, most 
conspicuously--to address reports of politically motivated 
firings. For instance, they issued a statement early in the 
summer urging all government agencies to discontinue any 
layoffs until after the election. This for the stated purpose 
of removing the concern that, in downsizings currently underway 
in the Georgian government, that personnel associated with the 
political opposition would be disproportionately affected--that 
had been the concern, that it was people associated with the 
opposition that were disproportionately losing their jobs as 
teachers and government employees at all levels. While such 
reports of politically motivated firings have decreased 
recently since the IATF announcement, concerns remain regarding 
the levelness of the playing field, including some alleged 
harassment of certain activists for their participation in the 
opposition coalition, some reports of blurred boundaries 
between state institutions and the ruling party--for example, 
some public servants using government resources for campaign 
activities--and the alleged use of administrative resources 
particularly outside the capital, such as the use of public-
service announcements that seem to be for the benefit of the 
ruling party.
    Nevertheless, although there have been some shortcomings, 
it is clear that, largely due to the substantial financial 
resources that have been available to the main opposition 
coalition, this is the most competitive election in Georgia's 
history.
    The second principle is about rule of law and due process. 
In our meetings with the Georgian government and the various 
political parties, we stressed the importance of ensuring that 
the campaign and election laws are applied equally and 
transparently, and that all participants are held to the same 
high standards of conduct as spelled out in Georgian law.
    While almost every party, including the ruling United 
National Movement, has been penalized for campaign finance 
violations, the state audit office has devoted the most 
significant part of its attention to the opposition coalition, 
Georgian Dream. Although there are some anecdotal and 
substantial indications suggesting that Georgian Dream may well 
have spent substantial amounts of money in violation of the 
campaign finance laws, the lack of transparency in the state 
audit office's procedures and due process deficiencies raise 
doubts about whether the law has been enforced equally vis-aa-
vis all parties. That the recent director and deputy director 
of that state audit office last month became ruling party 
parliamentary candidates while the current director of the 
office is a former member of the ruling party member of 
parliament, this exacerbates the concerns about the partisan 
nature of the investigations being undertaken by the state 
audit office.
    We recognize the challenges on all sides of complying with 
and enforcing a new set of campaign finance laws and urged the 
state audit office--we did meet with their new leadership--to 
emphasize transparency and due process as it continues to 
improve its work. We urged all the political parties to 
participate constructively, follow the law scrupulously and to 
pursue their political goals through the ballot box.
    The third principle is respect for fundamental freedoms, 
respect for peaceable protests and freedom of assembly as a 
hallmark of a democratic society, and the government holds a 
particular responsibility to protect and uphold those freedoms. 
We heard last week that the political parties we met have 
generally been able to travel the country, hold rallies and get 
their messages out to the voters with whom they meet. In our 
conversations, we also urged all parties to renounce violence 
and avoid provocations, especially on election day, election 
night, during and after the ballot counting and on the morning 
after.
    The fourth principle is equitable access to media. We 
applaud the electoral reforms enacted late last year that 
expanded the access of all parties on equal terms to the mass 
media during the 60-day campaign period. More recently, we were 
encouraged to see the implementation of the so-called must-
carry legislation during the campaign period, and we strongly 
support its extension through the post-election complaints 
process and beyond.
    At present, however, the two nationwide broadcast 
television networks are distinctly pro-government--Rustavi 2 
and Imedi--while two regional stations are mainly pro-
opposition or at least consistently critical of the 
government--Maestro and Kavkasia. Continuing efforts to promote 
wider access to a diversity of opinions and media outlets would 
reflect fundamental values that democracies share.
    The fifth principle that we emphasized in our meetings is 
constructive engagement. We have every expectation now, based 
on both the opposition's commitment to us that they reject the 
use of violence and the government's commitment to us that its 
security forces will be scrupulously professional, that 
election day and its aftermath can unfold peacefully. We 
certainly hope this will be the case. After October 1, all 
parties will need to work together constructively in the new 
parliament to advance Georgia's democratic and economic 
development. They should conduct their campaign in that spirit.
    Finally, we call on all participants to promote an 
electoral process that the Georgian people may judge as free 
and fair. We commend the work of the domestic and international 
observation groups, including principally the OSCE ODIHR 
mission that is currently in Georgia to help ensure the 
election process is transparent and consistent with 
international standards and reflects the will of the Georgian 
people. The pre-election situation is dynamic, and we are 
monitoring developments very closely. Your Commission's 
attention to the upcoming election is helpful.
    Again, thank you for holding this hearing. We look forward 
to continuing to work with the Commission, and I'd be glad to 
answer questions.
    Mr. Smith. Mr. Secretary, thank you very much for your 
testimony--very comprehensive--and for the fine work you and 
the department are doing, not the least of which is trying to 
get both sides to absolutely commit to no violence day of and 
day after, especially day after, which is what I think we're 
all most concerned about.
    So thank you for that. And you do believe those commitments 
are ironclad as much as they can be?
    Sec. Melia. I believe they told them to us, and we will 
continue to reinforce the fact that we have all agreed on this.
    Mr. Smith. Let me ask you--you know, that video that did 
surface about the harsh treatment of inmates, could you comment 
on that? I mean, that seems to be a very dark insight that 
caught a lot of us by surprise, certainly me.
    Sec. Melia. Well, let me make three quick points about 
these videos about mistreatment in the prison system.
    First is that I haven't seen the videos, but the 
descriptions I've heard of them are pretty gruesome and 
horrific. And so we're appalled by them. And our embassy has 
been engaged with the government and with others there in the 
hours--it's just been since yesterday that this arose very 
intensively.
    Second is that it is not surprising. In our annual human 
rights report that we published this year about the calendar 
year 2011, we summarized in the executive summary three large 
problems. The first one is continuing abuse of people 
incarcerated in Georgian prisons.
    So this is an ongoing problem. It's been clear to us for a 
while. We have raised it with the Georgian government, and it 
has been part of our--not only our most recent report, but for 
the last several years.
    Mr. Smith. But this went beyond even what the report would 
indicate. Right? It seemed to me to be--
    Sec. Melia. Videos always bring a new texture to 
allegations of abuse. And so it seems even more horrific than 
we had realized.
    But let me say that the initial response from the 
government seems to have been--what's the right word--President 
Saakashvili has reacted quickly and I think in the right way to 
change the minister of the prison--the minister overseeing the 
prisons has been changed this morning. The new minister is the 
human rights ombudsman who has a sterling reputation in looking 
after these issues. He's one of one of these that has raised 
the problem of conditions in prisons in the past. If he has--if 
he is given the power to clean up the act there, he really is 
empowered to take steps to improve the conditions of 
incarceration in Georgia's prisons, this could be one of those 
moments that, you know, where a horrific incident leads to 
improvement in a system.
    The other thing that's interesting is that, although 
there's already been some back-and-forth between the parties 
about who's responsible for leaking the video and whether--how 
real the problem is and so on, it's worth noting that Mr. 
Ivanishvili, the lead of the opposition, also came out this 
morning in both a previously scheduled meeting with our 
ambassador and in a public statement--called for calm among his 
supporters, calling for them not to turn this into a reason 
for, you know, more public street action in response to the 
government's responsibility to maintain the prison system.
    So I think both President Saakashvili and Mr. Ivanishvili 
have, today, stepped up and done the right things, done the 
responsible things, as responsible people sometimes do in 
moments of crisis.
    Mr. Smith. Are you convinced--one of your main points, 
obviously, was access to media. Does the opposition and the 
government, do they all have close to equal access or equal 
access?
    Sec. Melia. Well, as I mentioned, there are a number of 
broadcast networks. There's cable television. There's online 
news services. It's uneven in its--it has been uneven in its 
reach around the country. The two main national stations that 
have the most reach across the country tend to be pro-
government, echo the government party's views on things. The 
principal broadcast stations that are friendly to the 
opposition or at least critical of the government tend to be 
regional stations and don't have the reach in the country. 
There is also cable television and other means.
    The must-carry legislation which had been urged upon the 
government and that we had urged that they adopt last spring, 
they did, so that all the different news providers have access 
to the cable networks of the others so that, at the moment, up 
and through election day, there is more diversity in the 
carrying of cable news and political discussion.
    The point I made in my testimony is that now that it's been 
established that the basic cable infrastructure can be opened 
to the various political points of view, why stop it on 
election day? Why not continue it at least through the end of 
the official election process? The official election process, 
of course, doesn't end on voting day. It ends when the results 
have been tabulated, when disputes have been resolved and when 
the elected officials assume their offices. That's when, you 
know, the election monitor's guidebooks tell you should 
conclude your observation.
    And so we think that, since there may likely be protests 
and complaints on the day after the election, that that 
process, which is part of the election process, should be 
accessible to all the viewers in Georgia as well. So we've 
urged that that be carried through at least through the 
immediate post-election, post-election day period and more 
generally.
    There is a question about whether the legislation that was 
enacted earlier in this year that facilitated that which did 
stipulate that this must-carry period would end on election 
day, whether that means that it must stop on election day or 
whether it could continue if the providers see fit. So we're 
encouraging the providers to see fit to--
    Mr. Smith. Are you satisfied that the mechanism for 
resolution of disputed ballots is up to, you know, standards 
that would be universally recognized?
    Sec. Melia. Well, the system on paper----
    Mr. Smith. There will be disputes, obviously.
    Sec. Melia. ----is the proper one. We met with the election 
commission chairman whose prior career has been as a CPA and 
auditor for major international firms. So he knows about lining 
up the numbers and tallying them accurately. And he's 
approached his work, I think, in the spirit of a good CPA.
    And they've set up systems, and one of the innovations in 
this election that wasn't as true previously is that they will 
announce incremental election results as they come in from 
around the country in real time. And they will post them on 
their website, and they will make them available on screens 
that will be in the main hall of the election commission 
building.
    And those of us who have seen elections in the post-
communist world over the years, that is one of the best 
practices so that--and one of the concerns in previous Georgian 
elections has been a bungling of election results. Prior 
election chairs had decided to kind of wait and, every hour or 
two, they would post election results. And that led to some 
suspicions that some finagling might be going on while the 
results were tabulated but not yet released.
    So what the chairman has committed to doing--and he says 
this is part of his publicly announced process--is there will 
just be a rolling emissions program where everything will be 
posted as soon as distribute-level election results come in. 
And that is the best practice. So it can work properly.
    Mr. Smith. Let me just ask you three final questions, and 
then I'll yield to Mr. Cohen.
    Mr. Ivanishvili's citizenship, when it was revoked and 
reinstated through the constitution, what was our take on that 
at the time? And are we satisfied that--was it pressure that 
caused a reversal? Why did that happen?
    Secondly, with regards to the chamber of audit that 
targeted the Georgian Dream by imposing large fines, are those 
claims plausible?
    And finally, do you believe a sufficient number of election 
monitors are about to be deployed to ensure that, you know, 
when the judgment is made by the OSCE and others that it was 
free and fair--if that is their judgment--that there will have 
been enough coverage of the election balloting posts?
    Sec. Melia. On the last point--let me go in reverse order. 
On the election observers, there will be a lot of election 
observers there. There's a domestic network there, ISFED 
[International Federation Election Systems], that's been 
trained and has operated through previous Georgian elections. 
They are up and running around the country. They've produced 
some preliminary reports on what they are hearing and seeing.
    The long-term observers from ODIHR are on the ground now. 
That mission is led by Nicolai Vulkanov, a Bulgarian, who 
previously was the number two in ODIHR for 10 years; I mean, 
has run election observer missions across the OSCE region. He's 
as good as they come. I have a lot of confidence in his ability 
to manage all the political turmoil that will be around him and 
come up with as straight an assessment as is possible.
    So there will be--and there are a number of other--NDI and 
IRI have been deploying election missions and will have some 
there around election day. And there are a number of others 
sort of less famous perhaps but other NGO efforts that are 
underway to monitor the election process. So I think there will 
be a lot of information available and, you know, my view has 
always been the more observers, the better. They may not all 
agree with each other, but it's the same principle as having--
you know, more newspapers, the better. You don't learn all the 
same things from different newspapers in this town, for 
instance. But if you have multiple sources of information, 
you're more likely to get closer to the truth.
    So I think there will be a lot of observers. We'll have a 
lot of information between now and election day and on the 
morning after. Typically, the U.S. Government and the European 
Union wait until after the ODIHR and other major delegations 
offer their considered assessments, preliminary assessments on 
the afternoon after the election before we opine. We definitely 
want to wait to see what all the people on the ground say 
before we weigh in. That's our general policy, and I think it 
will be respected here.
    There are other delegations from the OSCE parliamentary 
assembly, NATO parliamentary assembly and others that will be 
there. There will be a lot of observers.
    On the question of the citizenship for Bidzina Ivanishvili, 
that's a complicated, torturous story. The way it's played out 
is very unusual. I mean, a lot of things about the Georgian 
election and political process are distinct. And I think they 
have arrived at a place where he's allowed to participate. He's 
clearly become a major political force in Georgian politics. I 
don't know that it's helpful to comment on the circuitous route 
they got to get to this point, but he's there. He's in, and he 
can participate as he wants to.
    I'm sorry. The second--
    Mr. Smith. Georgian Dream.
    Sec. Melia. Oh, well--oh, the enforcement of the laws and 
the finance laws. Well, you know, the record is clear, when 
Ivanishvili announced that he was going to get involved in 
politics and launched Georgia Dream--just about a year ago now; 
in October, I think, last year--he represented a significant 
new element in Georgian politics. At about that time, soon 
after that, new campaign finance laws were enacted and new 
powers were signed to this state audit agency, the chamber of 
control. And it has been vigorously enforcing the campaign 
finance laws.
    The government officials and the audit office say that most 
of the money and, therefore, most of the potential problems in 
campaign finance, are associated with Georgian Dream. 
Therefore, it is natural that most of their investigation 
should focus on potential and real problems associated with 
their adherence to the campaign finance laws.
    Others say that it's been selective implementation--
    Mr. Smith. What do we say?
    Sec. Melia. Well, it's clear that--well, I'll make two 
points. One is that it's troubling that the leadership of this 
office--they were leading the office from last year from the 
turn of the year through the summer. The director and the 
deputy director turned up last month as parliamentary 
candidates for the government party. That creates a perception 
of lack of-- disinterestedness in the process. The fact that 
the new chairman of the office is a former member of parliament 
for the government party adds to that disquiet. It might have 
been better to have a retired law professor or another CPA or 
somebody like that to do this kind of job. But it is what it 
is. So the way that the appointments were made to that agency 
have created a political cloud over its operation. The fact 
that it has been very vigorously enforcing rulings and 
investigations mainly against the Georgian Dream speaks for 
itself, I think.
    Mr. Smith. Mr. Cohen?
    Mr. Cohen. Mr. Ambassador--Secretary--
    Sec. Melia. I haven't become an ambassador yet.
    Mr. Cohen. Yeah; I realized that quickly. Mr. Secretary, 
I'm unfamiliar with the Georgian process. What type of 
equipment do they use to vote on?
    Sec. Melia. That's a good question. Paper ballots? Check 
the box? Count them up at the end of the day?
    Mr. Cohen. So what should an observer be looking for?
    Sec. Melia. That might be a longer conversation we could 
have in your office if you like before you go. But generally, 
you know, there's the environment around the voting booth.
    Mr. Cohen. Right.
    Sec. Melia. I mean, if the voting booth is the epicenter of 
election day and, in the ideal scenario, an informed voter goes 
into a booth and, confident that his vote is secret, casts the 
ballot in the way he prefers, how do you get to that point?
    You get to that point through a series of reinforcing 
measures. How do you get the informed voter? That goes to the 
media question. Are the candidates and the political parties 
able to get their message out to all the voters they are trying 
to reach? Is the interested vote able to access all the 
information he wants about the choices before him? So the, you 
know, information environment leading up to election day is 
critical.
    Is the process fair? Will the votes be counted accurately? 
That goes to how the election commissions are appointed, who's 
going to be--
    Mr. Cohen. All that is over and beyond what I will be able 
to observe in that day.
    Sec. Melia. Right.
    Mr. Cohen. I mean, am I going to, you know--are they going 
to be taking votes out of their pocket and--
    Sec. Melia. Well, among the allegations of potential ways 
in which the vote counting might be skewed are that people will 
be suborned or bribed or persuaded to take pictures on their 
cell phones of this ballots to prove that they marked them the 
correct way that somebody told them to, whether it's their boss 
or their neighborhood, you know, block leader or whoever.
    There's rumors afoot that, you know, people--there will be 
cameras, you know, monitoring people; that people will be given 
inducements to vote one way or the other. Some of that you 
might be able to see or hear about. Much of it you may not be 
able to see as a casual observer not speaking the local 
language.
    Mr. Cohen. Yeah. It's going to be tough not speaking 
Georgian. I mean, I can speak with a drawl, but I don't think 
that'll work.
    Sec. Melia. This is a different kind of Georgia. Yeah.
    Mr. Cohen. Yeah.
    Sec. Melia. You can tell a lot though. You can tell a lot 
as an experienced political person yourself. You can walk into 
a polling place, and you can tell whether there's an atmosphere 
of anxiousness, fear, concern.
    Mr. Cohen. Do they have any rules about how many feet you 
have to be away from the ballot area with distribution of 
literature or wearing of paraphernalia in the voting--
    Sec. Melia. They may well. I don't know what the numbers 
are, but I'm sure that there's specified. And that'll be part 
of the briefing material that you would have if you're part of 
the OSCE.
    Mr. Cohen. Yeah, there will be a briefing. And if you have 
any other information, I'd be interested.
    Sec. Melia. There are issues about, for instance in this 
partial context, it's perhaps more important than whether 
political party agents can be out in front of the polling place 
is where the police and other security forces might be. And 
this is one of the emerging things that we're watching because 
we want to avoid a situation in which there's some effort to 
provoke confrontations around the polling place. At some point 
in the recent past, some members of the opposition have said 
that they want to make sure their people are poised to defend 
the ballot from miscounting or otherwise. And that sounded like 
crowds might be gathering at polling places during the 
counting, and that might lead to some provocations with police 
or members of the other party. We did talk to the minister of 
interior that oversees the police, and we've urged them to be 
responsible in managing any crowds, any demonstrations that 
arise. And they're alert to that. There have been political 
demonstrations in the past that have led to larger violence and 
larger confrontation.
    And so they're aware of that. And some--you know, our 
government and some European governments are providing training 
on crowd management, riot control, things like that.
    Mr. Cohen. Do they have, like we have, the rights for both 
parties to have observers?
    Sec. Melia. Mmm hmm.
    Mr. Cohen. They do have that.
    Sec. Melia. They will be there.
    Mr. Cohen. And do both parties have the rights to be 
present to count the ballots?
    Sec. Melia. Yep; they will be. And just to be clear, 
there's at least three. There's another major party that will 
be a significant player in the race, the Christian Democratic 
Movement. But the UNM and the Georgian Dream are the two larger 
ones consistently in the polling that's been done. But this 
Christian Democratic Movement is not insignificant, either.
    Mr. Cohen. Has there been any polling that you have been 
privy to that you can discuss that gives you an indication of 
how the likely voters would vote?
    Sec. Melia. There is--there's a lot of polling that's been 
going on, some of it by NDI and IRI, our American party 
institutes that are on the ground there. Each of the campaigns 
has commissioned polls and selectively publish them when they 
seem politically useful.
    There's a--in this political environment, there's a major 
discussion about how to allocate undecided voters or people who 
decline to express their preference. The various pollsters have 
adopted different techniques for allocating the undecided to, 
you know, make assumptions, you know, based on their political 
skills about where those voters might go on election day. So 
that has led to some competing narratives about where public 
opinion is in Georgia. So that's all--there's a lot of that 
publicly available that can be--
    Mr. Cohen. What are the NDI and IRI--the Republican polls 
say?
    Sec. Melia. They have generally showed that the government 
party remains the most popular; that the Georgia Dream rose in 
popularity as the year went on. And the most recent ones that 
were published in August showed a dropping away of the Georgian 
Dream so that the gap between them and the government party was 
widening in the last month.
    Mr. Cohen. What is--what are the issues that have been 
raised in the campaign?
    Sec. Melia. Well, the polling shows that what voters mostly 
care about--and this will not be surprising to you--is jobs and 
the economy. And the campaigns, in different ways, have spoken 
to that with their different plans.
    So that--you know, Georgia, like any other country these 
days, those are the major things that voters say they want the 
campaigns to speak to. And they have done that in their way. 
They've had their public debates, the public forums. As I said, 
the campaigns are able to get out and around, and they are 
campaigning.
    Mr. Cohen. And so the must-carry law--which I had not heard 
that term--from where I am from, I would think that would 
involve, you know, side arms. Fortunately, it's not what it is. 
[Laughter.] Or photo ID, which is not such a wonderful--but 
what do they have to carry? I mean, is there a--is each station 
given equal time, each network, each broadcast or whatever or 
equal time to buy, equal opportunity?
    Sec. Melia. I don't think it's--well, there's campaign 
advertising. There's purchased advertising space on billboards 
and radio and television. But there's also--because of the 
generally aligned nature of the different networks, the 
question was whether they could--they would be obliged to carry 
other--the other camp's version of the news and discussion 
shows.
    So I don't think there's a--again, maybe I'm--I don't think 
there's a financial implication to that. I think it's just a 
requirement that they carry the other side's--
    Mr. Cohen. And with the advertising, has one side--is it 
unlimited amount of TV and radio, or did these laws limit how 
much one could spend?
    Sec. Melia. I can't speak to the details of that. I'm 
sorry, Congressman.
    Mr. Cohen. And do you know what the ads are like? Are they, 
you know--the two sides--is it just we'll get more jobs and we 
need more jobs? Or is it, Jane, you ignorant--
    Sec. Melia. I did not see a sampling of the campaign 
advertisements, I confess. That's a good question. If I were 
smarter, I would have done that last week.
    Mr. Cohen. Do you have any--the Georgia Dream--which I have 
to think about the American dream and that's one of our lines. 
Is--do you have--give me some impression of what--if the 
Georgian Dream is successful in the election, what they would 
bring to a difference in the Georgian government and how that 
might affect our relations with Georgia.
    Sec. Melia. Most of the analysts of the campaign platforms 
that I have seen, including our embassy reporting, say that 
there are not significant differences in the way they describe 
what they would do for the economy, for the jobs and so on.
    Whether the Georgian Dream would adopt a notably different 
foreign policy or have a different kind of relationship with 
the United States, that's a contested item. When I met with Mr. 
Ivanishvili at the start of last week, he spoke very 
passionately about his commitment to Euro-Atlantic integration, 
to Georgia's aspirations for NATO membership and E.U. 
membership, for a continuing strong relationship with the 
United States.
    So others will say that that represents some dissembling, 
that he would change Georgia's foreign policy. But, you know, 
we have no way to know what that would mean in the end. We 
can't predict what the foreign policy would be in a Georgia 
Dream-led parliament or government.
    What we know fundamentally is that we want a government 
that the Georgian people have elected. That's been our focus in 
this process. It's not our job to parse their stated or 
presumed policy inclinations down the road. That's for the 
Georgian people to decide.
    Mr. Cohen. As I understand it, he--was he from Russia?
    Sec. Melia. He's a Georgian born, Georgian--well, citizen 
in the end and spent much of his adult life in Russia making 
his fortune.
    Mr. Cohen. In that area? How did he make his fortune?
    Sec. Melia. Banking, money management, things like that.
    Mr. Cohen. Banking. The American dream. [Laughter.]
    Sec. Melia. He left Russia a few years ago. He's been 
living in Paris for a number of years before he returned to 
Georgia more full time essentially a year, year and a half ago. 
So he didn't come straight from Russia is my point. He moved 
out of Russia six or eight years ago, went to Paris, France, 
and was there and then he came back to Georgia.
    Mr. Cohen. Thank you.
    Mr. Smith. Just two brief questions to follow up or to 
conclude. Regarding cyber subversion by--of Georgian Dream and 
do we have any information as to who might have done that? 
What's the origins of it? And secondly, with the Kavkaz 2012 
military exercises, is that intended in any way to affect the 
outcome of the elections?
    Sec. Melia. We've recently heard the concerned expressed 
about some cyberattacks on Georgian Dream computer sites and 
computers and so on. I don't know the details of that. This has 
just recently come to my attention. And we've asked for more 
information--
    Mr. Smith. Could you get that back to us too as you get 
that?
    Sec. Melia. Sure, I can follow up----
    Mr. Smith. That will be very helpful.
    Sec. Melia. ----in the days to come if we learn anything 
conclusive or interesting about that.
    So we've heard the allegation, but we don't know what to 
make of it honestly. As for the Russian and CSTO military 
exercises, there is one under way in southern Russia to 
Georgia's north and one under way in Armenia. My understanding 
is that the Kavkaz 2012 Exercise, the principal one that's 
happening in the Russian Federation to the north, has been long 
planned. We certainly knew about it long ago. In fact, it was 
planned before the election date was clarified.You're well 
familiar with the Georgia-Russia dynamic, but we have also 
encouraged the Russians and their partners in those military 
exercises to try to avoid anything that could be interpreted as 
provocative. We shall see.
    Mr. Smith. Is there, Secretary, anything you want to add 
before we conclude?
    Sec. Melia. No. Just that I'm glad that some members will 
be able to visit Georgia around the election. That will add to 
our collective wisdom, and we can revisit where we are in the 
days after that. And I would look forward to hearing your 
readout from your visit there.
    Georgians in the government and in the opposition are among 
the best friends the United States has anywhere in the world. 
And I think we're reminded in the last week that we should 
cherish that. So we go into this with a strong sense of 
partnership with Georgia as a society and as a country and 
mindful of the important accomplishments of this government 
and, also, alert to some of the things we'd like them to be 
doing better going forward in strengthening their democratic 
systems and, as part of that, moving along that trajectory 
toward consolidation with NATO and E.U. and the Western 
alliance.
    Mr. Smith. Secretary, thank you very much for your 
testimony.
    Sec. Melia. Thank you.
    Mr. Smith. I'd like to now welcome our second panel to the 
witness table, beginning with Dr. Archil Gegeshidze, who is a 
senior fellow at the Georgian Foundation for Strategic and 
International Studies where he lectures on globalization and 
development as well as providing training in policy analysis at 
GFSIS. Prior to joining GFSIS, he was a Fulbright scholar at 
Stanford University.
    Dr. Gegeshidze worked for the Georgian government from 1992 
to 2000. During that time, he was assistant to the head of 
state on national security and chief foreign policy adviser to 
the president.
    We'll then hear from Dr. Ariel Cohen, who is a senior 
research fellow for Russian and Eurasian studies and 
international energy policy in the Kathryn and Shelby Cullom 
Davis Institute for International Studies at the Heritage 
Foundation. A commentator in great demand, he covers a wide 
range of issues including economic development and political 
reform in the former Soviet Republics, U.S. energy security, 
the global war on terrorism and the continuing conflict in the 
Middle East.
    Dr. Cohen's book, ``Russian Imperialism: Development in 
Crisis,'' came out in 1996 as well as in 1998. He also co-
authored and edited ``Eurasia in Balance'' in 2005, which 
focuses on the power shift in the region after the September 
11th attacks. He has written nearly 500 articles and 25 book 
chapters.
    We'll then hear thirdly from Dr. Mamuka Tsereteli, who is 
the director of the Center for Black Sea-Caspian Studies at the 
School of International Service at American University where he 
teaches classes on international economic policy and energy and 
security in Europe and Central Eurasia.
    He frequently speaks about the international relations in 
the Caucasus and the Central Asia political-economic 
developments, energy security and country risk analysis. Dr. 
Tsereteli serves as the president of the America-Georgia 
Business Council and the president of the Georgian Association 
in the United States of America, USA. He is a board member of 
the American Friends of Georgia, the Georgian Reconstruction 
and Development Fund, the Business Initiative for Reforms in 
Georgia and the American Academy of Georgia.
    Dr. Tsereteli previously served as the economic counselor 
at the embassy of Georgia in Washington covering relationships 
with international financial institutions, U.S. assistance 
programs and business initiatives. Dr. Cohen, if you could 
proceed first.

    DR. ARIEL COHEN, SENIOR RESEARCH FELLOW FOR RUSSIAN AND 
  EURASIAN STUDIES AND INTERNATIONAL ENERGY POLICY, HERITAGE 
                           FOUNDATION

    Thank you, Mr. Chairman. And thank you, the staff, for 
doing a terrific job day in and day out on a number of issues 
that I follow, including on Russia.
    Mr. Chairman, I am covering Georgia since '93, so it's 
almost 20 years. I've been in the country many times, wrote a 
monograph about Russia-Georgia war. I've also been an election 
observer in Russia, Albania, Azerbaijan, Kazakhstan and other 
countries. So it is, indeed, an important election that we're 
facing that will define not only who and how rules Georgia but, 
also, it will be crucial for U.S.-Georgian relations.
    Georgia is a geopolitical centerpiece in that part of the 
world. President Saakashvili developed a policy of Georgia 
building on the policies of his predecessor, Eduard 
Shevardnadze, bringing Georgia away from the Russian sphere of 
influence and building a strong relationship with the United 
States. His challenger, the Georgia Dream Coalition head, 
billionaire Bidzina Ivanishvili, has deep ties to Russia. 
Ivanishvili built his 6.4 billion [dollar] fortune, as was 
mentioned before, in the opaque Russian business world, 
primarily in banking. And jokes aside, Russian banking is not 
the same as American banking.
    So this year, we found out that Mr. Ivanishvili sold the 
majority of his assets to business people who are directly and 
closely connected to the Kremlin. Transactions like that do not 
happen in Russia without an explicit approval and blessing from 
the Kremlin.
    The rhetoric of this campaign is far from courteous. The 
Ivanishvili-led opposition is not mincing words. Its leader 
called Saakashvili, quote, ``son of a dog,'' and quote, 
``professional liar,'' unquote. In Russia and many neighboring 
countries, such language would earn the opposition leader a 
jail term or worse. Not in Georgia.
    In fact, recent media monitoring that was already discussed 
by Deputy Assistant Secretary Melia also found that the press 
coverage--printed press--is pro-opposition. When they did 
content analysis on photography, President Saakashvili came out 
with more negative coverage in terms of pictures, whereas radio 
was neutral and TV channels are polarized. As was mentioned, 
the national channels being more pro-government and three other 
channels being pro-opposition.
    There are serious accusations against the government ruling 
party and the government practices. Georgia Dream accused 
United National Movement, led by Saakashvili, of abuse of 
office, firing supporters of Georgia Dream from their jobs and 
other transgressions. It also claims that a small group of 
cronies surrounding Saakashvili holds Georgia in an iron grip. 
If so, it is difficult to understand why IRI and NDI polls 
demonstrate about 20 percent lead for the UNM but 55 percent 
against Georgia Dream, 35 percent. And Georgia Dream is not 
lacking for money.
    So the electorate in these elections have a real choice. 
After all, the ruling party took Georgia through a disastrous 
war with Russia in 2008 and a deep economic crisis. Georgian 
voters may have had enough of perennially active Saakashvili 
who is currently moving the parliament to Kutaisi, second 
largest town in the country, and relocated Georgia Supreme 
Court in a coastal town of Batumi. But this is not what the 
poll data showed.
    In addition, speaking of poll data, the pollsters who work 
for the ruling party are accusing opposition of manipulating 
polling results projecting much higher numbers than the 
Western-funded polling.
    So what I see comparing to other places I did election 
observation and having been in Georgia not too long ago in 
summer is a highly competitive election which is an achievement 
in itself. Let's not forget the Georgian political system as we 
see it is functioning only for nine years, and the Soviet rule 
ended 20 years ago.
    Horrible information came yesterday and day before, I 
believe, or yesterday and today about abuses in the Georgian 
prison system. The recent revelations of systemic torture 
horrified Georgians and foreigners alike. Such horrors should 
not be tolerated, especially in a country which aspires to 
integrate into Euro-Atlantic institutions. However, 
unfortunately, such despicable abuses happen everywhere. As we 
remember from our own Abu Ghraib scandal, in a number of U.S. 
prison systems recently in Alabama and Michigan where court 
settlements were reached involving hundreds of claimants, and 
in a country like Albania which is a NATO and E.U. candidate.
    It is encouraging that the Georgian leadership promised an 
impartial investigation leading to a comprehensive reform. We 
should not expect anything less than that. But looking broadly, 
by the standards of the former Soviet region, these are, as I 
said, highly competitive election with access not just to the 
media but also with reports of tens of thousands, hundreds of 
thousands of people attending rallies for the ruling party and 
for the opposition.
    The Georgia voters are informed and will have an 
opportunity to exercise their vote, and having election 
observers on the ground is extremely important and crucial. And 
I do have confidence in the ODIHR and OSCE observers doing 
their job. And we should wait for their reports.
    Unlike many countries where anti-American sentiment is 
rising--including Russia, Iran, Turkey--Georgia is truly 
different. President George W. Bush has a street named after 
him in the Georgian capital. Oil, gas, commodities and finished 
goods worth hundreds of millions of dollars move through 
Georgia on a daily basis. Its geopolitical role, alongside the 
Black Sea, is a budding oil and gas which Azerbaijan and the 
Caspian is crucial. [Unclear sentence] In case of a scenario, 
vis-aa-vis Iran, Georgia is also going to be geopolitically, 
very, very important.
    We heard about the maneuvers--the maneuvers by the Russians 
that led to the war in 2008 may create an intimidating effect 
if they occur before the elections as planned.
    We are at a determining point, and in the recent years, in 
this country, in this city, in this administration, focusing 
blindly on democratic process, excluding all other our national 
interest had become somewhat of a fashion. We're seeing the 
results in the Middle East.
    The previous U.S. administration and the current one 
encouraged elections in Gaza that brought Hamas to power, 
encouraged the Muslim Brotherhood to contest seats in Egyptian 
parliament under the previous regime, encouraged the elections 
that brought the Muslim Brotherhood administration in Egypt 
with the results in the long term that may be severely 
detrimental for American national interests.
    Clearly, Georgia is no Egypt. Saakashvili is no Mubarak. 
Georgia, one hopes, would rise for the occasion and conduct 
elections with minimal violations, let alone violence. And let 
me quote the former assistant secretary of state and my boss, 
Kim Holmes, quote, ``Free and fair elections are indispensable 
to democracy. You can't have democracy without them, but 
neither can you have democracy without an even greater 
commitment to the values, institutions and customs that make it 
work.'' And I believe that Georgia is in the process of 
creating these commitments to values, institutions and customs 
that make it work.
    As I said, the democracy in Georgia started 20 years ago 
when the Soviet Union collapsed. So far, observer missions from 
OSCE, IRI and NDI seem to report the elections are on track. We 
should expect their reports. We should definitely hold the 
current Georgian government's feet to the fire expecting 
reasonably conducted elections by European standards. However, 
we should not face an either/or choice or focusing exclusively 
on elections or pursuing American interests.
    That's a false choice. Mr. Chairman; hopefully, the U.S. 
can learn from our recent mistakes. Thank you very much.
    Mr. Smith. Thank you so very much. Dr. Tsereteli, if you 
would, proceed.

 DR. MAMUKA TSERETELI, DIRECTOR, CENTER FOR BLACK SEA-CASPIAN 
                  STUDIES, AMERICAN UNIVERSITY

    Thank you, Mr. Chairman. It's an honor to be a witness on 
this Commission. I would like to submit my written statement 
that I also submitted for the record. Thank you. I think timing 
of this hearing couldn't be more appropriate. The streets of 
Tbilisi as well as social media is filled with demands and 
facts reflecting on the developments related to prison abuse. 
Citizens of Georgia ask questions how something like that could 
be happening in the country that has European and Euro-Atlantic 
aspirations, that is known for its tolerance and the cordial 
human relationships.
    Unfortunately, the videos only prove what was said many 
times by some people and, also, was reflected by the U.S. 
Department of State annual reports on human rights. I don't 
think that we fully appreciate here in this room the magnitude 
of events unfolding in Georgia at this point.
    Georgia's prison system as well as its pre-trial detention 
mechanism is an important factor in Georgian political, 
economic and social life which impacts the daily lives of 
thousands of Georgians and their decisions about how they deal 
with the government as well as on how they approach elections.
    There is a failed state in Georgia. Some government 
officials assessed prison abuse as a systemic problem. And they 
are correct. But this is moral failure as well.
    Georgian society is shocked by the facts of abuse of power 
and maybe cover-up that involve high-level officials. It 
demands full-scale investigation.
    This abuse can only happen in an environment of unchecked 
and unbalanced power such as exists in Georgia today. This case 
increases importance of upcoming elections.
    I think it's good news that, despite responding to this 
crisis and street events, both government as well as opposition 
called on calm. And the opposition, in particular, called 
against unplanned street events.
    Georgia made visible progress in creating functioning state 
entities in recent years reducing regulatory burdens, 
developing critical infrastructure and eliminating bribery and 
bureaucracy. These are distinct achievements, and the Georgian 
people as well as the government deserve credit for those 
achievements.
    But those achievements also raise the bar for expectations 
for Georgia. Georgia is facing difficult security challenges, 
but it can only meet those challenges if it has national 
consensus on major issues affecting the country. The Georgian 
population has expressed multiple times in referendums and 
polls its desire to join transatlantic and European security 
and economic institutions. Achieving those strategic objectives 
require internal stability, but stability can only be achieved 
if political process creates an environment of broader 
political representation in the government.
    Leaders all around the world, heads of state, international 
institutions, U.S. politicians, leadership of NATO, friends of 
Georgia see the upcoming election on October 1st as an 
important milestone in building Georgia's democratic statehood. 
Many have called on Georgia to make certain that voters have an 
opportunity to express their free choice and, once they did it, 
to make sure that the results of elections are respected by all 
the participants of political process.
    In recent years, the Georgian political scene has been 
completely dominated by United National Movement of Georgia, or 
UNM, the party of President Saakashvili. The UNM has won 
constitutional majority in the parliamentary elections of May 
2008 which has, de facto, created one-party rule in Georgia. In 
fact, Georgia has been ruled by UNM with no significant 
opposition since 2004. Moreover, developments after 2008 
elections effectively eliminated debate and political 
collaboration from the Georgian scene. This has led to many 
harmful internal and external decisions by the Georgian 
leadership which has responded to criticism by frequently 
suppressing opposition with excessive force. One-party systems 
do not represent the electoral mood in Georgia.
    I would focus very briefly on some of the things that, in 
my opinion, the United States Government should do in order to 
support free election process in Georgia and then, hopefully, 
we'll have some questions and answers.
    I think U.S. should stay actively engaged in Georgia as an 
important observer and facilitate the development. Success of 
Georgia is essential for U.S. strategic interests in the 
broader Middle East and Central Asia region, but it's also 
essential for stability--broader stability.
    I think U.S. should entertain frank, public discussion 
about the state of democracy in Georgia. Georgia has made some 
progress, and the current government has done good things for 
the country. But narrative that stresses Georgia's liberal 
credentials need to be recast in light of some significant 
democratic shortfalls. Monitor closely unfolding details of the 
current prison crisis and investigation.
    I think the U.S. needs to establish strict conditions and 
benchmarks for the Georgian government to ensure the elections 
are held in a free environment. Election monitors from the U.S. 
Government will be very useful. U.S. needs to collaborate 
closely with the intergovernmental commission on election 
process violations. I think this Commission is doing positive 
job--positively contributing to the process.
    The U.S. should communicate to the Georgian leadership that 
if there are doubts about legitimacy of the elections, the U.S. 
will not recognize its results. Plan to hold another 
congressional hearing after the elections to review progress 
and announce this in advance to the elections. The U.S. needs 
to monitor developments after the election as well. The 
election process may not end by the night of October 1st. It is 
possible that the results of the election in several districts 
will be disputed and recounts may be requested. In order to 
avoid confrontation, it is important that there is a process of 
mediation through OSCE or other monitoring groups where the 
U.S. will be a participant.
    I think we need to mount--the United States needs to mount 
an effort to review the state of Georgia's media ensuring 
access to alternative sources of information throughout the 
country. Insist on immediate release of satellite dishes 
confiscated by the government, advising any international 
representatives to the Georgian National Communication 
Commission, and then closely monitoring its operation will be 
positive steps.
    Georgia has potential to become a democratic state and 
full-fledged member of the transatlantic family of nations. 
Their potential needs to be accelerated and deepened. The 
upcoming elections need to be seen from that perspective. 
Proper conduct of elections will get Georgia closer to that 
goal. Mismanagement of the elections may throw Georgia back for 
several years or maybe even decades.
    In the--[light? inaudible]--of the challenge to Georgia, 
John Stanick [sp]--wrote it is magical place, Georgia, and it 
becomes dream like the moment you have left it. And the people 
are magic people. It is true that they have one of the richest 
and most beautiful countries in the world, and they live up to 
it. The Georgian people are capable of deciding the right path 
for their future. Free and fair elections will give them that 
opportunity.
    Thank you.
    Mr. Smith. Thank you, Doctor. We'll now go to our last, Dr. 
Gegeshidze.

 DR. ARCHIL GEGESHIDZE, SENIOR FELLOW, GEORGIAN FOUNDATION FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Chairman, other members, professional staff, thank you 
very much for this wonderful opportunity to share with you some 
of my observations on the situation around elections in 
Georgia. Excuse my academic style of presenting since I come 
from academia and this is my very first time testifying before 
you.
    Well, I will start with a very short overview of the past--
of the democratic transformation which Georgia has gone 
through, then I'll try to characterize also shortly the state 
of affairs in and around the elections, what the electoral 
environment looks like. And then I'll also try to share with 
you some my observations, but very general--not as specific as 
Dr. Tsereteli presented--some of my observation on what the 
West in everyone and the United States in particular should do 
in order to facilitate a free and fair election process in 
Georgia.
    The first point is that Georgia's record of democratic 
transformation is controversial. On the one hand, the country 
is freer than the immediate neighborhood and demonstrates, at 
times, spectacular success at institutional modernization. The 
government was able to liberalize the economy, attract 
increased foreign direct investment, improve revenue 
collection, curb elements of small-scale corruption in the 
public services, streamline inefficient administration, 
legalize the shadow economy, reduce crime, provide 
uninterrupted energy supply and rebuild roads and other 
infrastructure. Among the most important and spectacular 
successes of the new government has been the overthrow of the 
autocratic leader of Adjara previously defined these central 
governments.
    On the other hand, the overall quality of democracy 
promotion raises concerns. Georgia's political development 
since the Rose Revolution can be measured in various ways, but 
the Freedom House course indicates an obvious stagnation. What 
actually happened was that all power went to the executive 
body, and the legislative and judicial benches became their 
perfunctory appendages. Power and the political regime thus 
became associated with the president. Currently, political 
institutions that provide pluralism and competition are 
manipulated by the ruling elite for one reason, to maintain and 
expand political power. Critics of the government point at 
serious setbacks in terms of institutionalizing checks and 
balances, eventually leading to serious misconduct.
    Further, the existing constitution substantially weakens a 
legislative body, thus disabling it in its exercise of 
oversight functions. Also, as the executive dominates the 
political landscape, it increasingly coerces the judiciary, 
curbing its independence. Additionally, the state intervenes in 
the independence of the media and brutally abuses property 
rights.
    Georgian democracy has always been hostage to either 
security concerns or power struggle, and this continues over 
already 20 years. This is the reason why the Georgian reforms 
in the sphere of democratic transformation were either one-
sided or inconclusive. While the emphasis during the reforms 
was put on strengthening the state, little attention was paid 
to building and strengthening democratic institutions and 
improving human rights. Independent judiciary, rule of law and 
media freedom are the most renowned cases of absence of will on 
the part of the government to reform. One of the recent 
examples of the inconclusive nature of reforms is Georgia's 
penitentiary system which accommodates one of the highest per 
capita numbers of prisoners in the world.
    Apparently, the government preferred coercion and 
intimidation as a method of managing the overcrowded prisons 
over modern and civilized standards. The terrible videos we 
have seen last days prove widespread and systematic torture at 
the prisons.
    From a moral standpoint, it is a big shame for Georgia. 
From the political standpoint, both domestic and international, 
it may have far-reaching consequences for the government as 
well as the country and its image. None of the elections held 
since independence had been simultaneously free, fair and 
competitive. The cleanest of all is the--is considered the 
October 1990 elections--still Soviet Union--conducted with 
little violence during the campaign and no evidence of overt 
interference with the polls and which brought to power the 
nationalist and anti-communist political forces.
    Against this backdrop, the most disputed election since 
independence has been the presidential election in January 
2008. Critics hold that Saakashvili had illegally used 
budgetary and administrative resources to secure victory with a 
narrow margin over the opposition candidate. Similar 
allegations were made about the unfairness of the general 
elections the same year.
    Although the international observer missions gave 
legitimacy to the outcome of both events, subsequent official 
reports admitted massive irregularities at all stages of the 
election process.
    This time around, the picture is mixed. On one hand, the 
pre-electoral environment is competitive and pluralist. Also, 
there are some welcome novelties such as the new election code, 
intergovernmental commission that operates under the National 
Security Council, voters list verification commission must 
carry rules that obligate cable operators to carry TV channels 
with news programs during the campaign period, improved format 
of public debates on the national public TV, et cetera.
    On the other hand, some of these novelties are far from 
perfect. For example, must-carry rules have not been timely or 
properly enforced across the country. Not all recommendations 
by the Venice Commission have been incorporated in the election 
code. Also, the prisoners who have committed minor crimes were 
given electoral rights. However, in the light of the recent 
scandal over human rights abuse in the penitentiary system, 
serious doubts arise as to whether the inmates will be able to 
make free choice at the ballot boxes.
    Inversely, overwhelming majority of Georgians living 
outside the country who are perceived to be critical towards 
the government are practically deprived of the right and/or 
possibility to vote.
    While competitive and pluralist, the pre-electoral 
environment is too polarized. Reports, for example, from 
Transparency International, inform us about numerous cases of 
intimidation of opposition activities, physical reprisals 
against opposition supporters, detention and arrest on 
political grounds, selective use of legal resources against the 
opposition by imposing disproportional sanctions, pressure on 
businesses that support opposition, use of public resources for 
political and electoral process.
    Apparently, the dominant feature of the post-Rose 
Revolution period wherein the ruling party faced a fragmented 
opposition has made it relax and has taken it by surprise by 
Georgian Dream, the newly emerged opposition coalition. As the 
ruling party dominates at all levels of state governance, it is 
difficult to differentiate the governing political team's 
activity from the electoral activity of the ruling party. Given 
the circumstances, the opposition coalition faces a state 
rather than the party as a competitor in the elections. The 
state portrays the Georgian Dream as an enemy of state by 
accusing of being Russia's fifth column and a retrograde force 
aiming at sending Georgia back to dark and corrupt past. For 
most of the public, groundlessness of these accusations is 
obvious. Nobody believes.
    Meantime, witnessing all these twists and turns, the public 
remains deeply distrustful towards the electoral process, and 
this is the main disadvantage and deficiency of the electoral 
process.
    As Georgia remains a primary target of Western assistance, 
some argue that future assistance programs should be more 
carefully structured. It is believed that, with Georgia being 
the success story of Western democracy support, too big a share 
of the assistance package has gone to the government without 
requiring accountability on spending. Also, the strong 
political and financial support for Georgia's democratic 
development after the Rose Revolution has backfired to some 
extent since it has not been backed up by clear benchmarks for 
reform.
    One such benchmark definitely is these elections. Fair 
assessment of the whole electoral process has a crucial 
importance for Georgia's future development. Sadly, though, in 
the past, there have been instances of premature assessment by 
international observers that have paid lip service to Georgian 
democracy as well as to the West's reputation in Georgia and 
the wider region.
    One of the most notorious cases has been a statement by a 
co-chairman--coordinator of the short-term observation mission 
which said that the 2008 presidential elections in Georgia was 
a triumphant step of democracy. Given the extremely polarized 
environment, we need to avoid such statements and assessments. 
More so, the international arbiters--monitors need to change 
the criterion of evaluation and, instead of basing their 
judgment on the comparison with the past electoral process, 
they have to assess how far or how close those elections are 
from those in Western democracies.
    Thank you.
    Mr. Smith. Thank you very much, Doctor.
    We do have a vote, so we do have to make our way to the 
floor in a couple of minutes. But that said, I'll just ask a 
couple of questions and yield to Mr. Cohen who will ask a 
couple of questions.
    And I think your point about having a follow-up hearing is 
a good one. We will do that, and it will be done in a very 
timely manner. So thank you for that, Dr. Tsereteli.
    Let me just ask a couple of questions. You know, the wealth 
issue which has arisen many times--and, Dr. Cohen, you 
mentioned it--$6.4 billion you've talked about. You know, even 
in this country, there's been an ongoing fractious debate about 
how much an individual should spend, how much can be spent on a 
campaign. Part of it was settled in a Supreme Court case known 
as Buckley versus Valeo, and it's pretty much unlimited by the 
individual candidate towards his or her campaign.
    In my own state, Senator Corzine spent over $60 million for 
a U.S. Senate seat. I mean, astronomical amount of money, but, 
you know, our laws allow that to happen.
    And I'm wondering if there is such a check and a balance on 
all that and, you know, both sides have valid points. Maybe you 
want to speak to the issue of having huge amounts of money and 
being able to essentially buy a campaign. But I know there are 
limits. So maybe you want to speak to that. Where will 
Ivanishvili take Georgia? I mean, Dr. Cohen, you seemed to 
speak most about that and cite a number of concerns. And I 
would appreciate it if you'd elaborate on that very quickly.
    And then what our overriding concern has to be is free and 
fair. Do you think this will be a free and fair election? Or 
are the checks and balances already baked into what will be an 
election in 11 days? Or do you think we have reason to be 
deeply concerned?
    I wish I had more time. And Mr. Cohen?
    Mr. Cohen. Thank you, Mr. Chair.
    I suspect that the biggest issue which I would like a 
response to is where you think the Georgian Dream would be--if 
they're successful, where they would take the Georgian 
government different than where it's been and what the 
relationship would be with Russia in terms of how that might 
affect relations with the West.
    And, also, the gentleman mentioned human rights and how you 
see human rights as being permitted by the present government 
and what differences might exist if the Georgian Dream were 
successful in their election. And what do you foresee for the 
election? Has it been--on the conditions to date as far as 
advertising, as far as enforcement of laws and restrictions 
that may have been imposed, has it been fair?
    Dr. Cohen. Gentlemen, excellent questions. All demonstrate 
your deep interest and expertise.
    Real quick, on the issue of personal wealth, let us make a 
comparison. Six point whatever billion dollars is more--if my 
calculations are correct--more than a half of Georgia's GDP per 
annum. So it would not be comparison with Mitt Romney's meager 
250 million [dollars]--meager in comparison to Bidzina 
Ivanishvili. It won't be a Ross Perot. It would be a guy or a 
gal with a pocket $7 trillion deep. People like this don't 
exist on Planet Earth.
    And there is a culture of bypassing official channels of 
financing in case of Russian oligarch, which Mr. Ivanishvili, 
whether he holds Russian citizenship or not, comes from a 
political culture of oligarchs. There's a modus operandi of 
cash. And, you know, if the Georgian government is successfully 
tracking that, good luck. If they don't, then they can't.
    But I bet you dollars to donuts, you cannot think about 
this campaign only with official figures. Probably on both 
sides, but especially when you have one big, deep pocket.
    In terms of direction, I think this is a strategic 
question, and this is something I'm grappling with and not a 
lot is said about that. And that is that whether we like 
Saakashvili or not, he never studied in Russia--he studied in 
Ukraine and in Colombia--he spent his formative years in 
Georgia and in the United States. And he built his movement 
more or less in his image in terms of getting a lot of Western-
trained people around him.
    Georgia Dream, on the other hand, has a Russian oligarch--a 
former Russian oligarch--as its head, has some first-rate 
diplomats--Ambassador Japaritza [sp], Ambassador Irakli 
Alasania--which I don't doubt their professional quotas. But 
that movement also has components that are deeply 
nationalistic, traditionalist, embedded with the church. And 
the Georgian Church, parts of it, are embedded with the Russian 
Orthodox Church and, in some cases--[inaudible]--and anti-
Semitic.
    So I do have concerns about that as well. And the rhetoric 
about distancing or slowing down the process of NATO 
integration was a signal. The rhetoric by Mr. Ivanishvili about 
opening Russian markets, getting closer to Russia are 
understandable because traditionally, for decades and 
centuries, Georgia did export fruit, wine--fruit, wine, mineral 
water--to Russia.
    But orientation is not the same as the United National 
Movement which is staunchly pro-European. They are aspiring to 
bring Georgia into the E.U. You and I can wonder why would you 
want to join the E.U. at this point, but that's their choice.
    Human rights, clearly, there is a place for improvement as 
we witnessed in the prison scandal. I'm not a computer geek. 
I'm not a computer expert. I cannot tell you what is the 
significance of these recent accusations that they were 
planting malware on the computers. I think somebody needs to 
look into that. But in terms of human rights, there's always, 
in every society, a place for improvement of individual rights 
of privacy, of penitentiary system. No question in my mind that 
things can be done better in Georgia.
    Mr. Smith. To be totally fair to our other two 
distinguished witnesses, Mr. Cohen and I are going to have to 
leave in about two minutes. There's only five minutes left on 
the vote. But we will leave this open. Michael Oakes will stand 
by. And then all of your comments will go not record, and then 
we'll--without objection, we'll do it that way because I want 
to hear from both of you. We both want to hear from both of 
you. So please proceed as long as you'd like.
    Dr. Tsereteli. First of all, accusations of Georgian church 
being--similar? Connected? [inaudible]--somehow to Russian 
church is absolutely wrong and false. And I just don't want to 
go into that discussion.
    There are individuals who may be like individuals from the 
Georgian government, maybe like individuals from opposition 
maybe, but saying it to the entire church, which is most 
probably one of the bases of stability in Georgia for the last 
decades, I think, is very wrong.
    About the wealth of Mr. Ivanishvili and money and politics, 
during the elections in 2010 in local elections, mayoral 
elections, Mr. Alisania spent about hundred times less than 
incumbent mayor of Tbilisi, Mr. Ugulava--hundred times. The 
difference was hundred times.
    So talking about money coming into politics sounds like not 
very relevant. Although I personally do not support large money 
coming into politics. So there is a limit of how much each 
party could spend. And I think government is very efficiently 
pursuing these limits to restrict money spending into Georgian 
politics.
    Onto the issue of future of Georgia. As my colleague and 
friend, Ariel, mentioned, Mr. Ivanishvili, from the time he 
announced his participation into politics, said that he's 
relying--he's basing his political group as a core group on Mr. 
Alisania's free Democrats and the Republican Party who's also 
known for its protestant credentials.
    So I think, by that, he expressed his [Protestant?] 
orientation from the beginning. And I--we may again have some 
people in his coalition, like in the government, who are 
willing to maybe change a little bit of the course of Georgia's 
development. But I don't see major challenges in terms of 
progress and orientation to Georgia. Thank you.
    Mr. Smith. Without objection, at the conclusion of Mr. 
Gegeshidze's statement, the hearing will be adjourned. But 
again, this will all be on the record, and I thank you.
    Dr. Gegeshidze. OK. Thank you.
    All right. Well, regarding billions in the election 
campaign, yes, I also would not support big money participating 
and being used in the election--in the election process. But 
this is the given fact, the reality.
    And I think that Ivanishvili's billions are less evil than 
the benefit which are the plurality and competitiveness that 
these elections do have compared to the situation wherein 
Ivanishvili wouldn't have been because Georgia does need higher 
quality democracy, higher quality electoral process. We, at 
last, need to graduate the very first class of democracy such 
as electoral democracy because all our previous elections have 
been contested, and it's already 20 years.
    But still the trust in the public towards elections are 
very weak, very low. And this is very bad for Georgia. And if 
not Ivanishvili's appearance, then we would not have this 
competitiveness and, if you wish, certainly, intrigue in the 
process.
    Regarding Russia, well, going deeper into analysis with 
this Russian origin of a person who has made his fortunes there 
mean? I don't know. How many American businessmen have made 
their fortune in Russia or Polish or Estonian or Belgian 
businessmen because Russia was a huge country in the '90s, and 
everybody, if not lazy, would go there and make money. So this 
guy also made his money.
    But what about the Minister Bendukidze who also made his 
fortune in the '90s but was brought back by this government as 
the minister of economy and not a single word against his 
Russian origin was ever mentioned by the government. Sorry? 
[Off mic exchange.] Yeah. Well, so I would consider this a very 
weak argument, if it is at all an argument in this discourse. 
Human rights. Well, the elections are usually--and everywhere, 
both here and in Georgia--about politicians running for the 
seats in the government, promising and voters listening and 
believing or not believing. So I cannot judge to what extent 
the--Ivanishvili's government, if it happens to come to power, 
will be more effective in observing human rights because I have 
not had a chance to test that.
    But if one assumes that the human rights record in today's 
Georgia is very poor--very, very poor--and there are almost no 
improvement since the Rose Revolution, and the recent days have 
demonstrated again where are we standing in that regard, I 
would believe that at least that if Ivanishvili comes to power, 
human rights will be at least no worse than what they are 
today, if not better.
    Well, I think I'll, to save our time, stop here.
    Staffer. Ladies and gentlemen, as you've all heard, 
Chairman Smith and Congressman Cohen had to leave to go and 
vote. They will not be able to return. So we will adjourn this 
hearing. However, as the chairman said, he's planning to hold 
another hearing after the election, and, of course, there will 
be a public notice about when that will be. In the meantime, I 
would like to take this opportunity to thank all of our 
witnesses, and this hearing is adjourned. Thank you.
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Welcome to our hearing on Georgia's parliamentary election, which 
is now only eleven days away. The campaign has brought Georgia to a 
crossroads; it is the most crucial event in Georgian democracy since 
the Rose Revolution of 2003.
    At that time, Georgians responded to a rigged election with a 
peaceful protest movement. It was a great moment in Georgian history, 
the first of the color revolutions. The Rose Revolution brought Mikheil 
Saakashvili and his team of western-oriented modernizers into office. 
Hopes were high in Georgia as Saakashvili strengthened the state and 
launched many reforms.
    Russia's 2008 invasion and occupation of the Georgian regions of 
Abkhazia and South Ossetia failed to topple President Saakashvili, and 
our country has strongly supported Georgian sovereignty. Vladimir 
Putin's invasion was yet another revelation of his cynical brutality. 
As an aside, I would note that I was in Georgia in the days following 
that invasion, working to effect the return of two girls--daughters of 
one of my constituents--caught behind Russian lines, and I was deeply 
impressed by the courage and determination I encountered in every 
Georgian I met.
    That brings us to the present moment. Only a year ago, President 
Saakashvili's ruling National Movement seemed poised to easily win the 
October 2012 parliamentary election over a fragmented opposition.
    But in October 2011 Bidzina Ivanishvili began to unite elements of 
the opposition into a new coalition that posed a serious challenge. Mr. 
Ivanishvili is a multi-billionare and though a newcomer to politics, 
has vast resources. Saakashvili's government quickly stripped him of 
his citizenship and parliament passed campaign finance laws that 
limited the use of his assets. At the same time, the instruments of the 
state--budget, police, security services--began to be deployed against 
Ivanishvili's party and its supporters, though to what extent is a 
matter of dispute.
    Consequently, the election campaign has raised questions about 
Mikheil Saakashvili's reputation as a reformer. I'm sure we'll hear 
from our witnesses to what degree his government has institutionalized 
genuine democratic governance as opposed to the appearance of it. I 
don't mean to pre-judge this question; it's a difficult one that our 
witnesses are outstandingly qualified to grapple with.
    But the main questions we'd like to hear our witnesses answer touch 
on the conduct of the campaign: specifically, the opposition's charges 
that the Georgian state has targeted Ivanishvili and his supporters, 
through harassment, intimidation, beatings, selective enforcement of 
the law, and violations of freedoms of assembly and expression. If 
substantially true, that would be terribly sad; it would indicate that 
the Rose Revolution had gone bad.
    At the same time, Ivanishvili and his coalition have been tarred as 
working on behalf of Russia. The Georgian government sometimes seems to 
paint the conflict not as one between two political parties but between 
the Georgian state and its foreign enemies trying to subvert it. We 
certainly need to hear your thoughts as well on this.
    I believe the members of this commission have open minds on all 
these questions, and that your testimony will be important in informing 
Congress and our government on the conduct of the Georgian election 
campaign, now in its last days. We are fortunate to have been able to 
assemble such outstandingly qualified witnesses.
    At this point I would remind everyone joining us today, whether in 
the room or through Web case, that all parties in the political process 
have to behave responsibly. At the same time it is the responsibility 
of the government--which controls the apparatus of state--to create the 
conditions for a free and fair election.
    Before concluding, I cannot fail to mention the terrible scandal 
which broke yesterday in Georgia, concerning gross abuse in prison. 
Videos have emerged that reveal the most horrifying tortures, including 
the sadistic rape of men by prison officials. The Georgian minister of 
corrections has resigned, individuals have been arrested, and the 
government has pledged to punish all those responsible and uproot this 
problem. I welcome those actions and promises. But I also note the 
statement made by the national security advisor who said: ``We as a 
government made a grave mistake when we did not properly evaluate the 
signals coming from the Ombudsman and other civil society groups about 
the systemic problems in the penitentiary system.'' That is a telling 
admission. It is precisely the systemic nature of this abuse that 
evokes the greatest concern because it raises questions about the 
nature of the Georgian state's relationship with its citizens.

   Prepared Statement of Thomas Melia, Deputy Assistant Secretary of 
State, Bureau of Democracy, Human Rights and Labor, U.S. Department of 
                                 State

    Thank you, Mr. Chairman, for inviting me to testify on Georgia 
today. Before I do so, I would like to thank you, the other Members, 
and the professional staff of the Commission, for promoting 
implementation of OSCE commitments by all participating States. We 
appreciate your dedication and ongoing engagement.
    Mr. Chairman, in advance of Georgia's October 1 parliamentary 
elections, the United States has been promoting a democratic electoral 
process diplomatically and through technical assistance. President 
Obama, Secretary Clinton, and other senior U.S. officials in Washington 
and Tbilisi have highlighted the importance of such a democratic 
electoral process for Georgia. In my testimony today, I will focus on 
last week's trip to Georgia of a senior interagency delegation I was 
privileged to lead.
    Last week, President Obama and Secretary Clinton sent to Georgia a 
senior interagency delegation including senior officials from the State 
Department, the U.S. Agency for International Development, the 
Department of Justice and the Department of Defense. Our delegation 
went to Georgia to highlight the importance of a democratic electoral 
process that produces a parliament that reflects the will of the 
Georgian people. I was delighted that our newly arrived ambassador, 
Richard Norland, joined most of our meetings. We met with a range of 
senior government officials and political party leaders, including 
opposition parties. We urged the Government to implement Georgia's 
election laws in a fair, impartial and transparent manner, and urged 
all political parties to fully participate in the process while abiding 
by the law. We also met with NGO election observers and media rights 
advocates.
    The message that we conveyed privately in each of our meetings was 
identical: the United States supports the Georgian people's aspirations 
for a free and democratic process. We do not favor any particular party 
or candidates, and the United States looks forward to continued close 
cooperation with the leaders the Georgian people choose.
    The upcoming elections are critical to helping Georgia advance its 
Euro-Atlantic aspirations. They also will be essential to a democratic 
transfer of power next year, as the parliament elected in October will 
appoint a Prime Minister who will gain considerably strengthened powers 
pursuant to constitutional reforms that will take effect when President 
Saakashvili's successor takes office. Domestic and international 
perceptions of fairness of the campaign environment, including 
adherence to the rule of law, media access, transparency, and the 
impartial adjudication of election-related disputes, will be important 
indicators of Georgia's democratic development.
    The long term work of building a vibrant democracy does not begin 
and end on election day. I would like to highlight the importance of 
several principles that we featured in our conversations in Georgia, 
all of which are essential for a meaningful electoral process.
    First is the importance of a level playing field. It is essential 
that the political environment is conducive to the full participation 
in the campaign by all parties on equal terms. Although there have been 
some shortcomings, it is clear that there is a competitive campaign 
underway. We welcome steps by the government through the Inter-Agency 
Task Force on elections to address reports of politically motivated 
firings. While such reports have decreased recently, concerns remain 
regarding the levelness of the playing field, including alleged 
harassment of certain activists for their participation in the 
coalition, reports of blurred boundaries between state institutions and 
the ruling party, and the alleged use of administrative resources, 
particularly outside the capital.
    The second principle is about rule of law and due process. In our 
meetings with the Georgian government and the various political 
parties, we stressed the importance of ensuring that campaign and 
election laws are applied equally and transparently, and that all 
participants are held to the same high standards of conduct as spelled 
out in Georgian law. While almost every party, including the ruling 
United National Movement, has been penalized for campaign finance 
violations, the State Audit Office has devoted significant attention to 
the opposition coalition Georgian Dream. Although there are some 
anecdotal and circumstantial indications suggesting that Georgian Dream 
may have spent substantial sums of money in violation of the campaign 
finance laws, the lack of transparency in the State Audit Office's 
procedures, and due process deficiencies, raise doubts about whether 
the law has been enforced equally. That the former director and deputy 
director of the State Audit Office are now ruling party parliamentary 
candidates, while the current director of the office is a former ruling 
party Member of Parliament, exacerbates these concerns. We recognize 
the challenges on all sides of complying with and enforcing a new set 
of campaign finance laws and urged the State Audit Office to emphasize 
transparency and due process as it continues to improve its work. We 
urged all the political parties to participate constructively, follow 
the law scrupulously, and to pursue their political goals through the 
ballot box.
    The third principle is respect for fundamental freedoms. Respect 
for peaceful protests and freedom of assembly is a hallmark of a 
democratic society, and the government holds a responsibility to 
protect and uphold those freedoms. We heard last week that the 
political parties we met have been able to travel the country, hold 
rallies, and get their messages out to the voters with whom they meet. 
In our conversations we urged all parties to renounce violence and 
avoid provocations.
    The fourth principle is equitable access to media. We applaud the 
electoral reforms enacted late last year that expanded the access of 
all parties on equal terms to the mass media during the 60-day 
campaign. More recently, we were encouraged to see the implementation 
of the so-called ``Must Carry'' legislation during the campaign period 
and we strongly support its extension through the post-election 
complaints process and beyond. Continuing efforts to promote wider 
access to a diversity of opinions and media outlets would reflect 
fundamental values that democracies share.
    The fifth principle that we emphasized in our meetings is 
constructive engagement. We have every expectation, now, based on the 
opposition's commitment to reject the use of violence and the 
government's commitment to us that security forces will be scrupulously 
professional, that election day and its aftermath can unfold 
peacefully. We certainly hope this will be the case. After October 1, 
all parties will need to work together constructively in the new 
parliament to advance Georgia's democratic and economic development. 
They should conduct their campaigns in that spirit.
    Finally, we call on all participants to promote an electoral 
process that the Georgian people judge as free and fair. We commend the 
work of the domestic and international observation groups, including 
principally the OSCE/ODIHR mission that in Georgia, to help ensure the 
election process is transparent and consistent with international 
standards and the results reflect the will of the Georgian people.
    The pre-election situation is dynamic and we are monitoring 
developments closely. Commission attention to the upcoming election is 
helpful. Again, thank you for holding this hearing. We look forward to 
continuing to work cooperatively with the Commission to advance 
internationally accepted human rights standards throughout the OSCE 
region.
    And with that I'd be happy to take your questions.

   Prepared Statement of Dr. Ariel Cohen, Senior Research Fellow for 
Russian and Eurasian Studies and International Energy Policy, Heritage 
                               Foundation

    Mr. Chairman, Congressmen, Secretary Melia, Ladies and Gentlemen:
    My name is Ariel Cohen. I am Senior Research Fellow, Russian and 
Eurasian Studies and International Energy Policy at The Heritage 
Foundation. The views I express in this testimony are my own, and 
should not be construed as representing any official position of The 
Heritage Foundation.
    Thank you for inviting me to testify before you today.
    The forthcoming parliamentary elections in Georgia, which will take 
place on October 1, are crucial to U.S. interests in South Caucasus, 
Black Sea and the Caspian region. They are crucial because two powers--
Russia and Iran--would like nothing better than to see President 
Mikheil Saakashvili and his party defeated.
    President Saakashvili's principal challenger is the Georgia Dream 
coalition, headed by a billionaire named Bidzina Ivanishvili with deep 
ties to Russia. Ivanishvili built his $6.4 billion fortune in Russia's 
opaque business world. This year, he safely sold his holdings to 
businesspeople that enjoy excellent ties with the Kremlin. Such highly 
sensitive business transactions never happen without the Kremlin's 
blessing. In Russia, business is politics and politics is business--as 
some less fortunate denizens of the Russian business Olympus, such 
Mikhail Khodorkovsky, who has been in jail for 10 years, know well.
    While Saaskashvili is considered the most pro-American leader in 
the former Soviet Union--and perhaps one of the most pro-American the 
world--Ivanishvili has never criticized Vladimir Putin. He promised to 
restore relations with Russia, and to reopen Russian markets to Georgia 
wine, fruit and mineral water, after Russia punitively excluded 
Georgian imports. He even promised to return to Georgia territories 
Russia occupied in the war of 2008--a highly unlikely notion. 
Saakashvili has been working tirelessly to bring Georgia into NATO, 
while Ivanishvili and his people said that NATO enlargement will not be 
a priority. This is understandable if they want to prioritize relations 
with Moscow.
    The rhetoric of this campaign is far from courteous. The 
Ivanishvili-led opposition is not mincing words: its leader has called 
Saakashvili the ``son of a dog'' and ``professional liar''. In Russia 
and many neighboring countries, such language would earn the opposition 
leader a jail term--or worse. Not in Georgia.
    In fact, recent media monitoring report funded by the EU/UNDP found 
that President Saakashvili received more negative photo coverage in the 
Georgian newspapers; the print media was generally supportive of the 
opposition, while radio was neutral, and TV channels were polarized, 
with a somewhat more pro-government slant.
    Ivanishvili's Georgia Dream coalition has accused the ruling United 
Democratic Movement, led by Saakashvili, of abuse of office, firing 
supporters of Georgia Dream from their jobs, and other transgressions. 
It has also claimed that small a group of cronies surrounding 
Saakashvili holds Georgia in an iron grip. If this is so, it is 
difficult to understand why the Georgian Dream trails the United 
Democratic Movement by 20 points: 35 percent to 55 percent according to 
one recent poll.
    After all, the ruling party took Georgia through a disastrous war 
and a deep economic crisis. Georgian voters may have had enough of the 
perennially active Saakashvili, who is currently moving the Parliament 
to Kutaisi, the country's second largest town, and relocated Georgia's 
Supreme Court to the coastal city of Batumi--but that is not what the 
poll data show. In addition, speaking of poll data, it appears that the 
opposition consistently manipulates their polling results, projecting 
higher numbers than independent polls commissioned by IRI and NDI 
suggest.
    Since 2003, Georgia has boldly progressed from a failed post-Soviet 
state to a growing, modern and more prosperous country. The current 
Georgian administration was successful in eradicating petty corruption 
and establishing an astonishing precedent in the Caucasus and the 
former Soviet space: Georgia is the only country in the region where 
officials practically do not take bribes.
    A successful police reform; an anti-corruption sweep; streamlining 
of government bureaucracy; rural electrification and gasification; and 
construction of roads; all make the ruling party still an attractive 
choice for Georgia. So does Saakashvili's vision of Georgia integrating 
into Europe and NATO.
    Clearly, not everything is perfect. The recent revelations of 
systemic torture and abuse horrified Georgians and foreigners alike. 
Such horrors should not be tolerated, especially in a country, which 
aspires to integrate into Euro-Atlantic institutions. However, 
unfortunately, such despicable abuses happen everywhere, as we remember 
from the Abu Ghraib scandal.
    It is encouraging that President Saakashvili, Prime Minister Vano 
Merabishvili and other leaders took upon themselves to investigate, and 
the Minister responsible for jails had resigned immediately. All 
friends of Georgia, including in the U.S. will eagerly await the 
results of an impartial investigation and a comprehensive prison reform 
Mr. Saakashvili promised.
    What we see in Georgia is a real political process. The opposition-
affiliated TV stations took a lead in exposing the prison scandal--and 
probably gained some political dividends in the process. Georgians are 
a very emotional people, who take their feelings very seriously. Some 
of the accusations sound dramatic.
    However, there are several daunting questions concerning these 
elections. First, why Mr. Ivanishvili decided to fight these elections 
not only in Tbilisi, not just in Kutaisi, Batumi, in Svaneti and 
Adjara--but around the world. He is he taking his message to Washington 
and Brussels, besmirching his President and his government.
    According to Washingon Post, Mr. Ivanishvili decided that it is 
important to spend a reported $300,000 a month on an A-team of the most 
expensive lobbyists in town. For what purpose? Isn't the Obama 
Administration already imploring the Saakashvili Administration to 
``democratize'' and not to ``over-militarize'' Georgian security, as 
one senior State Department official put it?
    The effective ban on supplying Georgia with defensive weapons 
systems, such as anti-aircraft and anti-tank missiles, even M-4 rifles, 
goes far enough to placate Mr. Obama's Russian ``reset'' partners. Is 
further de-legitimization of the Saakashvili government in Washington 
by the opposition leader really necessary for the victory of Georgia 
Dream or for the future of U.S.-Georgian relations?
    Is this PR campaign by the opposition in Washington just an 
preliminary ``artillery barrage'' before Mr. Ivanishvili takes a 
million of his supporters to the streets, as he promised? Can the 
Russian army interfere to ``restore order'' in Georgia if massive 
street demonstrations occur and someone calls for Russian troops to 
march in? Will they?
    Hopefully not.
    What is at stake? These elections are crucial to the future of US-
Georgian and US-Russian relations, as well as for the overall stability 
of the region. President Saakashvili has built upon the efforts of his 
predecessor, Eduard Shevardnadze to extricate Georgia from the Russian 
sphere of influence and move it West. Russia does not like his approach 
at all. And it may not like Mr. Ivanishvili, if he ever comes to power 
in his country. Unless, of course, he is doing exactly what the 
Russians are telling him to do. Abandoning the dream of joining Europe 
and NATO, and joining the Moscow-led Eurasian Union--with Belarus and 
Kazakhstan--may be an approach much more palatable to--and perhaps 
dictated by the Kremlin.
    Under Saakashvili's leadership, Georgia has become an important and 
close ally of the United States. Georgian soldiers have fought side by 
side with their American brethren in Iraq and Afghanistan. Georgia is a 
crucial transportation hub for the resupply and evacuation of ISAF and 
other American forces in Afghanistan. The country is the most pro-
American in the former Soviet Union bar none: in its foreign affairs as 
well as in promoting democracy and economic freedom within its borders.
    Among Georgia's neighbors, especially in Russia, Iran, Armenia, and 
Turkey, anti-American sentiments are growing. Just this past Tuesday, 
September 18, 2012, Moscow announced that it is shutting down US AID 
operations throughout Russia. So much for the hallowed ``reset'' 
policy.
    Georgia, however, is truly different. President George W. Bush has 
a street named after him in the Georgian capital. Oil, gas, commodities 
and finished good worth hundreds of millions of dollars move through 
Georgia on a daily basis. Georgia's geopolitical role alongside the 
Black Sea and abutting oil- and gas rich Azerbaijan on the Caspian, is 
crucial. Georgia is an energy and transportation corridor that connects 
Central Asia and Azerbaijan with the Black Sea and ocean routes 
overseas--for oil, gas, and other commodities. It is a part of the 
ancient East-West corridor. It is also a part of a North-South axis, 
which Russia and Iran would love to control.
    Russia, Georgia's most important neighbor, is unhappy with 
Georgia's pro-American orientation. Moscow's designs against Georgia 
are a threat to peace and democracy in the region, as its 2008 war with 
Georgia demonstrated. Moscow would like to threaten the Baku-Tbilisi-
Ceyhan Main Oil Export Pipeline; as well as a planned TANAP gas 
pipeline via Turkey and the new railroad from Azerbaijan to Turkey.
    Russia's current goals are to annex the Georgian territory it 
occupied during the 2008 war to the secessionist enclaves of Abkhazia 
and South Ossetia, which Moscow already controls. The United States and 
members of the European Union do not recognize the legitimacy of this 
occupation, as Secretary Clinton has repeatedly stated.
    Moscow would exacerbate ethno-religious conflicts in the region, 
including in Nagorno-Karabakh, a flashpoint of tensions between Armenia 
and Azerbaijan, and seeks to re-establish its ``sphere of privileged 
interests''--speaking bluntly, a sphere of influence.
    If a pro-Russian regime is established in Georgia, it will bring 
the strategic Baku-Tbilisi-Ceyhan oil pipeline and the Baku-Erzerum 
[Turkey] gas pipeline under Moscow's control. It will allow Russia a 
land re-supply route for Armenia, its Commonwealth Security Treaty 
Organization ally, and, under a certain circumstances, a land bridge to 
Iran via Armenia. These scenarios are being actively discussed in the 
Russian media.
    Georgia is also an important in view of the rising threats of 
Iran's nuclear program. Georgian airfields may play a role in a number 
of future scenarios involving Iran, thus rendering Georgia's domestic 
politics vital to the success or failure of the West's effort to 
prevent the Iranian regime from acquire nuclear weapons. If government 
sentiments inside Georgia were to change, such as through the rise of a 
pro-Russian government, the geopolitical picture in the South Caucasus 
and the Black Sea region would fundamentally change.
    Crucial Elections. The elections this year are therefore a 
determining point: will Georgia remains pro-American, pro-Western, and 
pro-democratic under President Saakashvili, or will it change its 
orientation under Bidzina Ivanishvili's coalition. Do the Western 
countries realize this?
    While the Georgia Dream coalition attracted first rate diplomats, 
its component members often are anti-Western, xenophobic and anti-
Semitic. Their foreign policy will be different than that of the 
current government.
    In recent years, blindly worshiping democratic process, especially 
elections, and disregarding American geopolitical goals has become 
somewhat of a fashion, including in this Administration. The U.S. 
vociferously supported elections in Gaza which brought Hamas to power 
despite the warnings from the Palestinian Authority and the Government 
of Israel.
    It cheered when The Muslim Brotherhood won contested seats in the 
Egyptian parliament during the Mubarak Administration. It urged the 
pro-American Egyptian rulers to quit quickly, disregarding the 
predictable outcomes for U.S. power and influence in the Middle East. 
As Kim Holmes, The Heritage Foundation Vice President and the former 
Assistant Secretary of State for International Organizations wrote,

        Egypt isn't yet a democratic society. At best it's ``pre-
        democratic.'' Its willingness to embrace elections may yet open 
        up the political system to democracy. But it lacks the 
        democratic values, institutions and customs that would ensure 
        future elections are more than a choice between anti-democratic 
        forces seeking to claim, or hold onto, power.

    Of course, Georgia is not Egypt and Saakashvili is not Mubarak. 
Georgia, one hopes, would rise for the occasion and conduct elections 
with minimal violations. Again, let me quote Kim Holmes:

        free and fair elections are indispensable to democracy. You 
        can't have democracy without them. But neither can you have 
        democracy without an even greater commitment to the values, 
        institutions and customs that make it work.

    However, let us not forget that this country's democracy is only 
nine years old, and Soviet authoritarianism only 20 years ago it shed. 
Thus far, observer missions from OSCE, IRI and NDI seem to report that 
the elections are on track and we should calmly expect their reports. 
We should definitely hold the current Georgian Government feet to the 
fire, expecting reasonable conduct of elections by European standards. 
However, we should not face an either-or choice of focusing exclusively 
on elections, or pursuing American interests to the exclusion of our 
commitment to democratic values.
    Hopefully, the U.S. can learn from our own recent mistakes.

                             ____________

The Heritage Foundation is a public policy, research, and educational 
organization recognized as exempt under section 501[c][3] of the 
Internal Revenue Code. It is privately supported and receives no funds 
from any government at any level, nor does it perform any government or 
other contract work.
The Heritage Foundation is the most broadly supported think tank in the 
United States. During 2011, it had nearly 700,000 individual, 
foundation, and corporate supporters representing every state in the 
U.S. Its 2011 income came from the following sources: Individuals = 78% 
Foundations = 17% Corporations = 5%
The top five corporate givers provided The Heritage Foundation with 2% 
of its 2011 income. The Heritage Foundation's books are audited 
annually by the national accounting firm of McGladrey & Pullen. A list 
of major donors is available from The Heritage Foundation upon request.
Members of The Heritage Foundation staff testify as individuals 
discussing their own independent research. The views expressed are 
their own and do not reflect an institutional position for The Heritage 
Foundation or its board of trustees.

    Ariel Cohen, L.L.B., Ph.D., is a leading expert
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
